No. 19-77

IN THE

'upreme Court of the ainiteb ibtateo
CARING FOR MONTANANS, INC. AND
HEALTH CARE SERVICE CORPORATION,
Petitioners,
v.
THE DEPOT, INC., UNION CLUB BAR, INC., AND TRAIL HEAD, INC.,
Respondents.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

CERTIFICATE OF SERVICE
I, Anthony F. Shelley, a member of the Bar of this Court, hereby certify that,
on September 18, 2019, I caused three copies of the Supplemental Brief of
Petitioners in this case to be served by first-class mail, postage prepaid, on counsel
of record for each respondent in this case as set forth below. I also caused an
electronic copy of the brief in PDF format to be served on counsel of record for each
party in this case. I further certify that all persons required to be served have been
served.

Peter K. Stris
STRIS & MAHER LLP
725 S. Figueroa Street, Suite 1830
Los Angeles, CA 90017
Tel. (213) 995-6800
Email: peter.stris@strismaher.com
Counsel for Respondents The Depot, Inc.;
Union Club Bar, Inc., and Trail Head, Inc.

Anthony F. Shelley
Counsel of Record
Miller & Chevalier Chartered
900 Sixteenth St. NW
Washington, DC 20006
Telephone: 202-626-5800
Facsimile: 202-626-5801
E-mail: ashelley@milchev.com
Counsel for Petitioner Caring For
Montanans, Inc.

2

